OFFICE OF AUDIT
ATLANTA REGION
ATLANTA, GA




      The Section Eight Management Assessment
       Program Lacked Adequate Controls To
               Accomplish Its Objective




AUDIT REPORT NUMBER 2012-AT-0001         AUGUST 3, 2012
2012REPORT
                                                        Issue Date: August 3, 2012

                                                        Audit Report Number: 2012-AT-0001




TO:            Milan Ozdinec, Deputy Assistant Secretary for Public Housing and Voucher
               Programs, PE

               Donald LaVoy, Deputy Assistant Secretary for Field Operations, PQ

               //signed//
FROM:          James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:       The Section Eight Management Assessment Program Lacked Adequate Controls
               To Accomplish Its Objective


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the effectiveness of HUD’s Section Eight
Management Assessment Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
404-331-3369.
                                           Date of Issuance: August 3, 2012
                                           The Section Eight Management Assessment Program Lacked
                                           Adequate Controls To Accomplish Its Objective




Highlights
Audit Report 2012-AT-0001


 What We Audited and Why                    What We Found

As part of the U.S. Department of          HUD had not developed adequate controls to ensure
Housing and Urban Development              that SEMAP would be effective in identifying
(HUD), Office of Inspector General’s       underperforming agencies. It did not establish and
(OIG) annual plan, we audited HUD’s        maintain an effective system of management controls
controls over the Section Eight            to provide reasonable assurance that agencies
Management Assessment Program              administered the Section 8 program to help eligible
(SEMAP). Our objective was to              families afford decent rental units at the correct
determine whether HUD had adequate         subsidy cost. In addition, the field offices visited
controls to ensure that SEMAP              during the review performed SEMAP requirements
effectively assessed public housing        inconsistently. As a result, SEMAP’s objective of
agencies’ Section 8 administration.        identifying underperforming agencies was not always
                                           achieved. HUD recognized weaknesses in the program
                                           and planned to improve SEMAP’s controls, including
                                           implementation of the Office of Public Housing and
                                           Voucher Programs’ Next Generation Management
                                           System and the Office of Field Operations’ Portfolio
                                           Management Tool.

 What We Recommend

We recommend that HUD develop and
implement improved controls over
SEMAP as it currently exists. These
controls should reduce HUD’s reliance
on self-certified agency data and annual
audit reports. We also recommend that
HUD improve its controls over how
field offices perform program
requirements.
                          TABLE OF CONTENTS


Background and Objective                                                      3

Results of Audit
      Finding : SEMAP Lacked Adequate Controls To Accomplish Its Objective    4

Scope and Methodology                                                        12

Internal Controls                                                            13

Appendix
   A. Auditee Comments                                                       15




                                          2
                      BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development’s (HUD) Section 8 program was
established as part of the Housing and Community Development Act of 1974. In fiscal year 2011,
HUD’s total budget was about $48.5 billion, of which $18.4 billion, or about 38 percent, was
budgeted for the Section 8 program. There were about 2,500 agencies administering the Section 8
program. As of December 31, 2011, about 2.2 million families were being assisted under the
program.

The Section Eight Management Assessment Program (SEMAP) was designed to assess whether
the Section 8 tenant-based assistance programs operate to help eligible families afford decent
rental units at the correct subsidy cost. SEMAP also established a system for HUD to measure
agency performance in key Section 8 program areas and assign performance ratings. SEMAP
provided procedures for HUD to identify agency management capabilities and deficiencies to
target monitoring and program assistance more effectively. Agencies could use the SEMAP
performance analysis to assess and improve their own program operations.

SEMAP’s 1996 proposed rule noted that at a time of diminishing HUD staffing resources, the
use of SEMAP would enable HUD to improve its risk assessment and effectively target
monitoring and program assistance to housing agencies that needed the most improvement and
posed the greatest risk. On September 10, 1998, a final rule was published in the Federal
Register. Initially, HUD did not assign overall performance ratings. The rule proposed waiting
until independent verification methods for the indicators were properly implemented before full
implementation of SEMAP. On July 26, 1999, an interim rule, making technical amendments to
SEMAP, was published. The interim rule became effective on August 25, 1999.

HUD established regulations to require Section 8 agencies to submit to the HUD field office a
SEMAP certification form within 60 calendar days after the start of its fiscal year. Upon receipt
of the agency’s SEMAP certification, the field office scored the agency’s performance under
each SEMAP indicator. The HUD field office then prepared a SEMAP profile for each agency,
which showed the scores for each SEMAP indicator and an overall SEMAP score and
performance rating (high performer, standard performer, or troubled).

Our objective was to determine whether HUD had adequate controls to ensure that SEMAP
effectively assessed public housing agencies’ Section 8 administration.




                                                3
                                RESULTS OF AUDIT


Finding: SEMAP Lacked Adequate Controls To Accomplish Its Objective
SEMAP failed to achieve its objective of accurately assessing public housing agencies’ Section 8
program administration. This condition occurred because HUD did not establish effective
management controls and field office staff inconsistently monitored compliance. In addition,
HUD staff expressed concern over SEMAP’s design, and HUD reviews and Office of Inspector
General (OIG) audits identified agencies submitting inaccurate SEMAP certifications. As a
result, SEMAP’s objective of identifying underperforming agencies was not always achieved.



 HUD Implemented SEMAP
 Without Establishing Effective
 Controls

              Originally, HUD planned to rate agency performance under eight SEMAP
              indicators based on statements in the latest independent auditor’s annual audit
              report. HUD was required by chapter 1 of HUD Handbook 1840.1 to establish
              and maintain a cost-effective system of management controls to provide
              reasonable assurance that programs and activities were effectively and efficiently
              managed and to protect against fraud, waste, abuse, and mismanagement.

              HUD intended that, through Office of Management and Budget Circular A-133,
              independent auditors would test a minimum sample of files for compliance and
              include specific statements in the audit report concerning compliance with all
              eight SEMAP indicators. Although the independent auditors were required to
              perform a review of the Housing Choice Voucher program as part of the annual
              audit, the Office of Management and Budget ruled that HUD could not
              supplement Circular A-133 to require specific testing and reporting on
              compliance. Therefore, HUD had to change its management control approach
              and based SEMAP ratings on self-certification by the agencies.

 Field Offices Were Inconsistent
 in Monitoring Compliance

              We made site visits to six Region 4 field offices and found inconsistencies in
              monitoring for SEMAP compliance (see the Scope and Methodology section of
              the report for a list of offices visited). The field offices performed 31 onsite
              SEMAP confirmatory reviews at 28 agencies from January 2007 through
              December 2011. Thus, each office averaged only one onsite confirmatory review
              each year. Since there were 194 agencies serviced by these six field offices, the


                                               4
six annual onsite confirmatory reviews performed represented about a 3 percent
rate of coverage. The results from our testing pertain only to these field offices
and items sampled for review; therefore, we did not project the results to the
universe of field offices.

There were inconsistencies in how field office staff selected agencies for onsite
confirmatory reviews. Of the six field offices visited, four selected agencies
based on the results of in-house risk analyses. One field office that serviced only
seven agencies based selection on agency size, and the remaining field office
based its selection mainly on SEMAP scores. Staff from the field office that
based its selection on SEMAP scores stated that the SEMAP scores were
unreliable because of the self-certifying nature of SEMAP.

Field office staffs were also inconsistent regarding their use of the results of
agencies’ annual audit reports. Field offices were required by 24 CFR (Code of
Federal Regulations) 985.3 to review annual audit reports to verify the first eight
SEMAP indicators. Regulations at 24 CFR 985.103(d) provided that the first
eight SEMAP indicator scores were subject to modification based on the results of
an agency’s annual audit. In addition, regulations at 24 CFR 985.103(E)(2)
provided that if an independent auditor was unable to determine whether an
agency’s financial statements or Federal expenditures were presented fairly, that
agency would automatically be given a troubled performance rating by the field
office. Some field office staff members reviewed the annual audit reports in
conjunction with the performance of onsite SEMAP confirmatory reviews,
whereas others did not review them at all. Since some offices did not review
annual audit reports in conjunction with the SEMAP reviews, HUD may have
awarded some agencies passing SEMAP scores when they should have been rated
as troubled.

Field office staff members did not always score the SEMAP indicators in the
same way and did not always update the scores in HUD’s Public and Indian
Housing Information Center database. Regulations at 24 CFR 985.102 require
HUD to prepare a SEMAP profile for each agency, showing a score for each
indicator and an overall score. However, individual indicator scores were not
always changed in HUD’s database based on the onsite confirmatory review
results when the overall performance designation (high, standard, or troubled) was
not affected. Also, HUD staff did not always comply with Office of Public and
Indian Housing Notice PIH 2001-6 instructions to update the SEMAP scores in its
database following onsite confirmatory reviews. Some staff members were
unaware that the scores could be updated, which led to inaccurate information
remaining in the database.

Field office staff did not always require agencies to correct SEMAP deficiencies
found during onsite confirmatory reviews. Agencies were required by regulations
at 24 CFR 985.106 to correct cited deficiencies within 45 days of notification by
HUD or submit a corrective action plan if the deficiencies were not corrected



                                  5
            within the 45 days. HUD was authorized by regulations at 24 CFR 985.109 to
            find an agency in default of its annual contributions contract if it failed to comply.
            Of the 31 onsite confirmatory reviews reviewed, either two agencies failed to
            comply with the 45-day requirement, or HUD staff was unable to document
            compliance. In one case, the agency was notified of its SEMAP deficiencies on
            September 29, 2011. At the time of our field office visit the week of February 13-
            17, 2012, the agency had not responded to HUD’s notification of deficiencies, and
            field office staff had not followed up on the agency’s noncompliance. In the other
            case, HUD notified the agency on October 2, 2008, but field office staff could not
            document that the agency had corrected the deficiencies within the required 45
            days.

HUD Staff Expressed Concern
With SEMAP’s Design

            Office of Public and Indian Housing management and staff at headquarters and in
            field offices stated that relying on agencies to self-certify SEMAP compliance
            was not an effective management tool.

            They were also concerned with relying on agencies’ annual audit reports as the
            primary verification method for self-certified SEMAP scores. The independent
            auditor was required by Circular A-133 to determine whether compliance testing
            of an agency’s Section 8 program was required. If compliance testing was
            required, section 14.871 provided suggested audit procedures for six specific
            areas of the Section 8 program. All six areas were also used as SEMAP indicators
            included on the agency’s annual SEMAP certification submitted to HUD. There
            was also a section in the compliance supplement that covered two additional
            SEMAP indicators found under the performance reporting section of the
            supplement. HUD staff assumed that if the independent auditor’s report was
            silent on program deficiencies, the independent auditor had performed adequate
            compliance testing and found no problems related to the eight SEMAP indictors.

            However, if compliance testing of an agency’s Section 8 program was not part of
            the agency’s annual audit, HUD staff may have relied on audit reports for
            verifying self-certified SEMAP indicator scores when the independent auditor had
            performed no compliance testing. Our comparison of annual audit reports to the
            31 SEMAP onsite confirmatory reviews performed by the field offices visited
            showed inconsistencies between what the auditor reported and what HUD found
            for 14, or 45 percent, of the agencies HUD reviewed.

            Program staff agreed that the most effective way to determine agency compliance
            was for HUD to perform onsite confirmatory reviews; however, HUD’s
            confirmatory reviews had been limited due to staff reductions that occurred after
            implementation of SEMAP. HUD’s May 2003 front-end risk assessment of the
            Section 8 program cited program office staffing as an inherent program risk. The
            assessment stated, “SEMAP-related scoring and confirmatory follow-up is now


                                              6
             the primary oversight measure for program compliance. Current staffing is not
             sufficient to adequately accomplish all required tasks as SEMAP reporting is
             submitted and the workload continues to increase.” HUD noted that SEMAP
             would provide an additional measure of program performance but noted that
             regular onsite agency reviews were no longer being conducted due in part to the
             understaffing of field offices. HUD planned to address the cited risk by
             increasing the staff. However, from 2003 through 2011, Office of Public and
             Indian Housing staff decreased by 11 percent, from 1,676 to 1,508. As a result,
             there were fewer staff members available for onsite monitoring of Section 8
             agencies.

HUD Confirmatory Reviews
Identified Incorrect SEMAP
Scores

             HUD’s onsite confirmatory reviews showed that agencies’ self-certified SEMAP
             scores were not always accurate. We reviewed 25 onsite reviews conducted from
             January 2007 through December 2011 by the six field offices visited. To avoid
             skewing our analysis, we excluded six onsite reviews performed due to late
             submissions. We did so because all SEMAP indicator scores for late submissions
             are considered zero and are not changed as a result of a confirmatory review. The
             results of the review apply only to the sampled items and cannot be projected to
             the universe of agencies administering HUD’s Section 8 program.

             Overall SEMAP scores were reduced in 10 of 25 cases, or 40 percent, with the
             average reduction being 42 points. The SEMAP indicators reduced the most
             often were indicator 3, “determination of adjusted income” (seven times), and
             indicator 1, “selection from waiting list” (six times). HUD also rescored indicator
             3 with zero points 10 times. For those cases in which indicator 3 was reduced
             because the agency incorrectly calculated a participant’s adjusted income, the
             agency may have overpaid or underpaid housing subsidies.

  OIG Audit Reports Showed
  Inaccurate SEMAP Self-
  Certifications

             As with HUD’s confirmatory reviews, recent HUD OIG audits also reported
             several cases in which agencies had provided inaccurate SEMAP self-
             certifications to HUD. OIG reported that various SEMAP indicator scores and
             the overall SEMAP scores did not represent actual Section 8 program
             administration at those agencies. The following three audits found inaccurate
             SEMAP certifications.




                                              7
The Wilson, NC, Housing Authority – Report Number 2011 AT 1003
Program deficiencies showed a failure to comply with many of HUD’s Section 8
requirements related to SEMAP, including

       Mismanaging the Authority’s Section 8 Family Self-Sufficiency program,
       Mismanaging program and tenant funds,
       Improperly selecting tenants,
       Making improper housing assistance payments, and
       Failing to perform adequate housing quality standards inspections (our
       inspection of 23 units showed that none met minimum standards and 6
       were in material noncompliance).

However, the Authority awarded itself a perfect SEMAP score (130 out of 130
points) for the period ending December 31, 2011, the same period covered by our
audit. Our audit did not support the Authority’s self-certified high performer
designation.

The Shelby County, TN, Housing Authority – Report Number 2012 AT 1007
The Authority’s self-certified score of 100 out of a possible 125 points, or 88
percent, was not supported by our audit. For example, the Authority claimed that
it reinspected completed housing quality standards inspections to ensure accuracy,
but we found that it had not performed such reinspections since the program
began. The report noted other SEMAP-related deficiencies, including

       Miscalculating tenant income and utility allowances,
       Failing to determine rent reasonableness, and
       Failing to complete housing quality inspection forms.

Weymouth, MA, Housing Authority – Report Number 2011 BO 1009
The audit report stated that the Authority self-certified to items that it had not
adequately performed. For example, the audit found that the Authority’s score for
indicator 2, “rent reasonableness,” was inaccurate and its scores for indicator 5,
“housing quality standards quality control,” and indicator 6, “housing quality
standards enforcement,” lacked adequate supporting documentation. The
Authority had awarded itself the maximum number of available points for
indicators 5 and 6, despite the fact that it had not performed adequate or timely
annual or quality control inspections. In addition, it had not abated rents paid to
landlords for units failing to pass housing quality standards inspections on a
timely basis. The report stated that the Authority had failed to implement an
effective quality control program and did not have policies and procedures for the
abatement of rents to landlords.

Although there were significant indications that some agencies had certified to
false statements, the field offices did not aggressively pursue corrective action.
Section 1001 of Title 18 of the United States Code makes it a criminal offense to
knowingly submit a false written statement to the Federal Government. The


                                 8
         agencies’ annual SEMAP certification forms, HUD-52648, included the Section
         1001 language. None of the public housing directors we spoke with indicated that
         they either had pursued or would pursue criminal action against agency staff
         members if it was determined that they had falsified a SEMAP certification.
         Instead, the directors stated that they would consider contracting out the
         management of the program, taking administrative action against agency staff,
         rescoring the SEMAP profile and taking action including requiring a 100 percent
         review of agency expenditures, or requiring an immediate onsite review and
         imposing “some type of sanction.”

HUD Was Developing SEMAP
Improvements


         HUD’s Office of Public and Indian Housing management recognized the
         existence of program deficiencies. In December 2010, it executed a contract to
         assess its programs including Section 8 and SEMAP. The assessment found that

                HUD’s monitoring tools were outdated;
                HUD did not collect all data required to assess agency performance,
                compliance, and risk;
                HUD had limited insight into the physical quality of its portfolio;
                HUD had no insight into the housing assistance payment amounts made to
                individual landlords;
                Information in HUD systems was not always reliable; and
                Rent reasonableness could not be independently validated without an
                indepth review.

         Management then took steps to use new technologies and independently verifiable
         information to address the deficiencies identified. It planned to improve
         SEMAP’s controls as part of the Office of Public Housing and Voucher
         Programs’ Next Generation Management System and the Office of Field
         Operations’ Portfolio Management Tool.

         Through the use of new technologies, the Next Generation Management System’s
         expected capabilities include obtaining independent and verifiable agency
         information to improve program performance (including Section 8 housing
         quality standards), strengthening financial management, enhancing accountability,
         and reducing operational and administrative costs via the use of up-to-date
         information systems. At the time of our review, the Next Generation
         Management System was in the planning stage, and none of the modules had been
         deployed. Management expected that it would begin deploying the various
         modules during the first calendar quarter of 2013 and have the system fully
         operational sometime after calendar year 2014. Management agreed that controls
         over SEMAP would be important to the success of the system, but the controls
         had not been developed.


                                         9
             The Office of Field Operations developed the Portfolio Management Tool. The
             tool is a comprehensive data collection system that helps users convert data into
             information, establish milestones, monitor progress, and improve HUD systems
             and structures. It is an Excel-based system that pulls housing agency data
             elements from a variety of sources into one accessible and easy-to-use display.
             The tool provides an instant snapshot of individual agencies in a field office’s
             jurisdiction, including specifics regarding, among other areas of agency
             operations, SEMAP scores and open findings from monitoring reviews and audits.
             At the time of our review, HUD had brought 16 of 44 field offices online and
             planned to have the rest of them online by the end of fiscal year 2012.

Conclusion

             SEMAP lacked an adequate system of management controls for effectively
             accomplishing its objective. HUD headquarters management and field staff had
             no confidence in the program, given its heavy reliance on self-certified scores and
             annual audit reports. In addition, due to a reduction in public housing staff
             resources, HUD was severely limited in the number of onsite confirmatory
             reviews it could perform. As a result, SEMAP’s objective of identifying
             underperforming agencies was not always achieved. However, HUD’s focus on
             developing and implementing initiatives that rely on independent and verifiable
             real-time information could, if fully implemented with the needed controls,
             improve SEMAP’s effectiveness.

Recommendations

             We recommend that the Deputy Assistant Secretary for Public Housing and
             Voucher Programs

             1A. Develop and implement improved controls over SEMAP as it currently
                 exists. The controls should be designed to obtain relevant and reliable
                 information and include criteria to ensue that they function effectively.
                 They should reduce HUD’s reliance on self-certified agency data and annual
                 audit reports.

             1B. Develop and implement specific procedures to aggressively pursue public
                 housing agency personnel when it is apparent that intentional false statements
                 have been made on HUD’s SEMAP certification forms. The procedures
                 should provide guidance on referring offenders for possible prosecution or
                 administrative action.




                                             10
We recommend that the Deputy Assistant Secretary of Field Operations ensure
that field offices

1C. Refer independent auditors to the Real Estate Assessment Center’s Quality
    Assurance Subsystem for enforcement action when HUD’s onsite SEMAP
    confirmatory reviews or other evidence indicates noncompliance with the
    requirements of Circular A-133.

1D. Do not select agencies for onsite confirmatory reviews solely based on their
    self-certified SEMAP scores. In addition, HUD should communicate a
    common methodology that field offices can use to select agencies for onsite
    reviews to achieve improved consistency among the field offices.

1E. Review agencies’ annual audit reports and update SEMAP profiles when
    required.

1F. Update agencies’ SEMAP profiles based on the results of onsite monitoring.

1G. Enter into corrective action plans with Section 8 agencies when required and
    use appropriate administrative action to ensure compliance with requirements.




                                11
                          SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed the program’s proposed rule, final rule, and technical
amendments; program regulations at 24 CFR Part 985; HUD Handbook 1840.1, Departmental
Management Control Program; various relevant HUD notices; and the Single Audit Act, including
amendments.

We also interviewed HUD management and staff at headquarters and at six Region 4 Office of
Public and Indian Housing field offices.

We did not rely on computer-processed data during the audit. All computer-processed data used
during the audit were tested for reliability while we performed our audit steps.

We selected six Region 4 field offices to visit as part of our audit survey. The field offices were
selected based on (1) limiting travel costs, (2) visiting field offices in a majority of States located
in Region 4, (3) visiting field offices that serviced relatively large Section 8 agencies, and (4)
visiting field offices that differed significantly in the number of agencies they serviced.

We reviewed 100 percent of the 31 onsite SEMAP confirmatory reviews performed by the six field
offices from January 1, 2007, through December 31, 2011. The results from this sample pertain
only to the items sampled and were not projected to either the universe of all HUD field offices
or agencies administering HUD’s Section 8 program.

We performed our onsite work from January 15 through April 20, 2012. During that period, we
conducted site visits to the Nashville, TN, Memphis, TN, Greensboro, NC, Jacksonville, FL,
Atlanta, GA, and Louisville, KY, field offices as well as HUD headquarters in Washington, DC.
The review generally covered the period January 1, 2007, through December 31, 2011, and was
expanded as necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                  12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 13
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                   HUD management did not implement adequate management controls to
                   ensure that SEMAP would be effective in identifying underperforming
                   public housing agencies (finding).




                                             14
                 APPENDIX

Appendix A

             AUDITEE COMMENTS




                    15
16
